23

IN THE SUPREME COURT OF THE UNITED STATES
No.
Lee Mulcahy, Petitioner,
V.
Aspen Skiing, Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, Lee Mulcahy hereby certify under penalty of perjury
under the laws of the United States of America that the
foregoing is true and correct: According to the
word-count tool in Google Chrome, the Petition for
Certiorari by Petitioner consists of 4747 words,
including footnotes and including the sections
enumerated by Rule 33.1(d). The Brief therefore
fcs with Rule 33.1(g),—co:
Date executed 4/9/20^
Subscribed and sworn to before this 9th day of April 9,
2020.
I am duly authorized under the laws of the State of
Colorado to administer oaths.

f N«

KELBY FARIAS

NOTARY PUBLIC
STATE OF COLORADO
NOTARY 10 #20184045165
MyConwilwionExplro»Ndwnibef26,2022

iblic

